AUDIT OF THE USE OF FISCAL YEAR 2002
FUNDS TO IMPROVE THE OPERATIONAL
 READINESS OF SMALL BOAT STATIONS
       AND COMMAND CENTERS
          United States Coast Guard

         Report Number: MH-2003-028
          Date Issued: March 3, 2003
           Revised: April 15, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Use of Fiscal Year 2002 Funds                 Date:    April 15, 2003
           to Improve the Operational Readiness of Small
           Boat Stations and Command Centers
           MH-2003-028
  From:    Alexis M. Stefani                                       Reply to
                                                                   Attn. of:   JA-40
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Commandant
           United States Coast Guard

           This reissued report presents the final results of our audit of Coast Guard’s use of
           $14.5 million of congressionally designated funds to improve the staffing,
           training, experience, and equipment at small boat stations and command centers.
           The audit was conducted in response to language contained in the Department of
           Transportation’s Fiscal Year (FY) 2002 Appropriations Act (Act) directing the
           Office of Inspector General (OIG) to audit and certify Coast Guard’s use of the
           supplemental appropriations.

           Prior to the transfer of Coast Guard and Transportation Security Administration
           oversight responsibility to the Department of Homeland Security (DHS), our
           office was involved in processing a number of reports and, unfortunately, did not
           realize that the team working on the audit did not complete our quality assurance
           process prior to transferring to DHS. We have subsequently completed the quality
           assurance process, and as a result, are reissuing this report with revisions. These
           revisions did not affect our overall conclusions and recommendations. We have
           provided annotated pages of the report showing the revisions to your audit liaison.

           We regret any inconvenience caused by the earlier report release. Because the
           Coast Guard transferred to DHS on March 1, 2003, we will provide this report to
           the DHS Office of Inspector General for follow-up to ensure corrective actions are
           taken. We appreciate the courtesies and cooperation of the Coast Guard during the
           course of this audit. If you have any questions concerning this report, please call
           me at (202) 366-1992 or Debra Ritt, Assistant Inspector General for Surface and
           Maritime Programs, on (202) 493-0331.
                                                    #
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Use of Fiscal Year 2002 Funds to                                      Date:    March 3, 2003
           Improve the Operational Readiness of Small Boat
           Stations and Command Centers
           MH-2003-028
  From:    Alexis M. Stefani                                                          Reply to
                                                                                      Attn. of:   JA-40
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Commandant
           United States Coast Guard



           INTRODUCTION
           This report presents the results of our audit of Coast Guard’s use of $14.5 million
           of congressionally designated funds to improve the staffing, training, experience,
           and equipment at small boat stations and command centers. The audit was
           conducted in response to congressional direction contained in the Department of
           Transportation’s Fiscal Year (FY) 2002 Appropriations Act (Act). The Act
           directed the Office of Inspector General (OIG) to audit and certify that Coast
           Guard used the appropriation to supplement, and not supplant, its efforts to
           improve the operational readiness of small boat stations and command centers
           during FY 2002.

           As indicated in Senate and House Committee reports accompanying the Act, the
           appropriation resulted from committee concerns over the declining operational
           readiness of small boat stations reported by the OIG in September 2001.1 At that
           time, we reported that boat stations operated with staffing and experience levels so
           low that boat crews were working well in excess of Coast Guard’s 68-hour work
           week standard in order to maintain station readiness. We also identified critical
           shortfalls in the number of experienced personnel at boat stations, which increased
           the on-the-job training workload of these personnel. Finally, we reported that

           1
               “Audit of the Small Boat Station Search and Rescue Program,” Report Number MH-2001-094, September 14, 2001.
                                                                                      2


boatswain’s mates, which account for 65 percent of the staff assigned to small boat
stations, lacked formal training in basic seamanship, small boat handling,
navigation and piloting, water survival, and search and rescue (SAR) techniques.
Committee members expressed concern over these issues, stating, “Given these
serious staffing and training shortfalls, it is not surprising to see an increase in the
number of accidents involving Coast Guard rescue boats.”

While the Appropriations Committees expected the $14.5 million would help
Coast Guard begin to increase small boat station staffing and training levels,
Committee members acknowledged that improving the operational readiness of
small boat stations, which has been deteriorating for more than 20 years, will
require a long-term effort by the Coast Guard.2 To that end, the Committee
directed the Coast Guard to submit a strategic plan for improving small boat
station readiness that, at a minimum, addresses how it will: increase staffing,
training and experience levels; and improve the quantity and quality of personal
safety equipment.

The strategic plan has taken on added importance due to the elevation of Coast
Guard’s homeland security mission to a level commensurate with Coast Guard’s
highest operational priority, its SAR mission. For example, between FYs 2001
and 2002, Coast Guard’s small boat fleet increased its operating hours by
39 percent as a result of the increased demand for security within the coastal zone.
However, as noted in the Homeland Security Act,3 maintaining the readiness of
small boat stations and command centers, while at the same time expanding the
security capability of these units, will present Coast Guard with significant
challenges.

BACKGROUND
Small boat stations and command centers are an integral part of Coast Guard’s
homeland security mission. Each year, these units spend thousands of hours
coordinating communications between Coast Guard air, sea, and land-based units;
conducting port security patrols; and boarding, inspecting, and escorting high
interest vessels, cargoes, and crews arriving at U.S. ports. At the same time, Coast
Guard also relies on these units to support its more traditional missions, including
SAR, recreational and commercial fishing vessel safety, marine environmental
response, and migrant and drug interdiction. For example, during FY 2002, Coast
Guard’s small boat fleet accounted for 53 percent of the total mission hours
devoted to the ports, waterways, and coastal security mission and 63 percent of the
total mission hours devoted to SAR.


2
    Senate report accompanying the Department’s FY 2002 Appropriations Act.
3
    Public Law 107-296.

                                                   Revised
                                                                                  3


Coast Guard’s FY 2002 budget request to Congress included $5.541 million to
increase the number and experience levels of staff at small boat stations and
command centers. To address the serious staffing, training, and equipment
problems at Coast Guard’s small boat stations and command centers, Congress
added $9 million to Coast Guard’s original request, bringing the total
SAR appropriation to $14.5 million. Further, Congress directed that these funds
be used by Coast Guard “…solely to increase staffing at search and rescue
stations, surf stations and command centers; increase the training and experience
level of individuals serving in said stations through targeted retention efforts;
revise personnel policies and expand training programs; and to modernize and
improve the quantity and quality of personal safety equipment, including survival
suits, for personnel assigned to said stations….”

RESULTS IN BRIEF
During FY 2002, Coast Guard spent $49 million more than in FY 2001 to improve
the quantity and quality of personnel and equipment at small boat stations,
command centers, and other field locations. Approximately $28 million of the
increase funded 789 additional personnel at small boat stations, which increased
station staffing by 19 percent. This expenditure was well in excess of the
$14.5 million Congress designated in FY 2002 for small boat stations and
command centers.

Interpreting the congressional directive broadly, Coast Guard generally complied
with congressional direction by spending the funds on small boat stations and
command centers. However, when looking at the driving force behind the
congressional appropriation—to enhance SAR operations—we could not
technically certify that the expenditures supplemented Coast Guard’s
SAR initiatives. The primary reason for this is that Coast Guard’s small boat
stations and command centers support multiple missions, such as homeland
security, recreational and fishing vessel safety, law enforcement, and marine
environmental response, making it difficult to isolate the amount of station and
command center expenditures for SAR operations in Coast Guard’s cost
accounting system. This system uses a formula to allocate costs based on mission
hours, and mission hours devoted to SAR during FY 2002 decreased by 9 percent
from FY 2001 levels.

Coast Guard’s inability to isolate SAR expenditures will present Congress with
oversight challenges in determining whether Coast Guard is maintaining the
correct balance between its newly elevated security mission, the SAR mission, and
its other traditional core missions after it transfers to the Department of Homeland
Security. Consequently, we are recommending that Coast Guard make the
                                                                                                                  4


necessary improvements to its cost accounting system to allow for the tracking and
certification of future expenditures for SAR operations.

We are also concerned that Coast Guard spent the majority of the appropriation on
workforce expansion, without adequately funding training, personal protection
equipment (PPE), and infrastructure improvements needed to support the growth
in personnel. For example, the majority of the newly-assigned staff were junior
personnel (recent boot camp graduates and mariner apprentices), many of which
lacked the requisite training, experience, and qualifications to perform their station
watchstanding and boat crew duties. Although it is expected that the additional
staff will eventually help Coast Guard reduce the average number of hours per
week that boat crews must work, the low trainer-to-trainee ratio that existed during
FY 2001 remains virtually unchanged. As a result, senior station personnel will
continue to bear the burden of training and qualifying station boat crews.

In an October 15, 2002 memorandum to the OIG, Coast Guard stated it over-
recruited to meet the senior enlisted workforce needs of tomorrow. While we
agree that over-recruiting is a positive first step in a long-term process of growing
its workforce, Coast Guard did not adequately support the personnel growth by
ensuring that the training, equipment, and infrastructure were in place to
responsibly support the additional staff. Specifically, we found that:

      • Many of the more experienced staff added to stations were assigned to
        positions for which they were not qualified. Our analysis of new senior
        personnel serving in senior positions created during FY 2002 at 71 of
        186 stations disclosed that 66 percent4 were not qualified for their positions.
        Most of these involved mariner apprentices with only about 2 years of
        experience who were serving in trainer positions.

      • Coast Guard is not providing formal entry-level training to all of its
        aspiring boatswain’s mates before assigning them to stations. The entry-
        level school for boatswain’s mates did not begin its first class until
        September 30, 2002.        Further, because the school can only train
        570 personnel annually, Coast Guard will be unable to provide formal
        training to the approximately 5,000 new boatswain’s mates needed through
        FY 2006 unless it substantially expands the school’s training capacity.
        Consequently, senior station personnel will continue to shoulder the on-the-
        job training burden, which could undermine efforts to reduce the 84-hour
        work week.

      • Coast Guard did not provide funding to equip all of the 541 (69 percent) of
        the 789 personnel it added to stations during FY 2002 with personal safety

4
    64 of 97 personnel serving in senior billets created during FY 2002 were not qualified for their positions.

                                                           Revised
                                                                                                                     5


           equipment. This occurred because these new personnel were not placed in
           specific station positions. Station budgets, which only fund active duty
           personnel, were not adjusted to provide adequate funding to equip all
           personnel eligible for boat crew duty with their own set of personal safety
           equipment.

      • The size, age, and condition of Coast Guard’s shore facilities have affected
        its ability to adequately support recent personnel increases. Twelve of
        22 small boat stations are reporting that they do not have adequate
        workspace, sleeping quarters, or shower facilities. For example, Station
        Miami Beach, Florida, which was converted to accommodate 48 personnel,
        is now supporting 73 personnel. Station Michigan City, Indiana, built in
        1889, has been expanded by adding a second floor with sleeping quarters.
        However, the middle part of the structure is being held up by jacks in the
        basement that are sinking into the ground.

           The deteriorating condition of boat stations is a long-standing problem that
           has been aggravated by Coast Guard’s decision to reduce the level of
           funding for shore facilities while increasing its capital commitments to the
           Integrated Deepwater Procurement Project and the Rescue 21 Project.5
           From FYs 2000 to 2003, funding for shore facilities and aids to navigation
           decreased from $64 million to $50 million. During the same period, capital
           funding allocated to the Integrated Deepwater Procurement Project and the
           Rescue 21 Project increased from $60 million to $568 million. This trend
           is likely to continue, as Coast Guard did not request funding for shore
           facilities in its FY 2004 budget submission to Congress.

Finally, the temporary status of the 541 personnel that were not placed in
authorized positions, coupled with average tour lengths of 9 to 23 months for entry
level personnel, make it unclear whether these personnel will serve as dedicated
SAR resources or be reassigned to other locations as needed. Without assigning
these personnel to permanent positions, there is no assurance that stations will
retain the higher staffing levels.

In discussing our findings with Coast Guard, officials agreed that over-billeted
personnel need to be placed in permanent positions and told us that they are
adding 239 senior billets to stations during FY 2003 to make some of the over-
billeted personnel permanent. While the senior billets are needed, there will still
be 302 over-billeted personnel who are not assigned to authorized positions.
Further, we note that Coast Guard plans to over-recruit in FYs 2003 and 2004,

5
    Deepwater is a 20-year acquisition, construction and improvement (AC&I) project to replace Coast Guard’s
    deepwater fleet of cutters, aircraft, sensors, and communication equipment. Rescue 21 is an AC&I project to replace
    the 9-1-1 type system for mariner distress calls.
                                                                                 6


which would further increase the number of over-billeted personnel at stations.
Therefore, we remain concerned that the personnel added to stations may not serve
as dedicated SAR resources or be adequately supported by station budgets.

Improving the operational readiness of small boat stations and command centers
will require a substantial and sustained investment in people, infrastructure,
training, and equipment. It will also require a comprehensive strategic workforce
plan to guide the recruiting and hiring of personnel whose knowledge, skills and
abilities meet Coast Guard’s needs. In our September 2001 report, we
recommended that Coast Guard develop a strategic plan for improving the
operational readiness of small boat stations that provides a clear framework for
rebuilding the SAR program by describing specific actions, establishing time
frames for completing those actions, identifying organizations and personnel
responsible for actions, and estimating implementation costs.                This
recommendation was reinforced by language in the Senate Committee reports
accompanying the FY 2002 Transportation Appropriations Act that directed Coast
Guard to submit a strategic plan for improving SAR program readiness.

Coast Guard agreed with our recommendation to develop a strategic plan
identifying staffing levels to meet its 68-hour work week standard and to provide
the training needed to ensure personnel assigned to stations were fully trained. In
December 2002, Coast Guard provided the OIG with a draft of its Boat Forces
Strategic Plan. However, our review of the draft plan found that it was so general
in nature as not to be useful for guiding Coast Guard implementation of the plan or
measuring progress in rebuilding the SAR program. Further, the plan does not
address, with sufficient clarity, how and when Coast Guard will increase staffing,
training and experience levels to meet Coast Guard’s 68-hour work week standard;
and improve the quantity and quality of personal safety equipment.

Restoring the readiness of small boat stations and command centers, while at the
same time expanding Coast Guard’s security capability, will require sustained
attention by the Coast Guard. The Boat Forces Strategic Plan, which outlines a set
of initiatives to strengthen the capabilities of Coast Guard’s boat forces, will be
critical to achieving a balance between these two operational priorities.
                                                                                  7



RECOMMENDATIONS
We recommend that the Commandant:

1. Make the necessary improvements to Coast Guard’s cost accounting system to
   allow for the tracking and certification of future expenditures for
   SAR operations.

2. Revise the draft Boat Forces Strategic Plan to identify specific actions, time
   frames, and assigned responsibilities required for increasing staffing, training,
   and experience levels at boat stations to meet Coast Guard’s 68-hour work
   week standard and for improving the quantity and quality of personal safety
   equipment as directed by the Senate Appropriations Committee.

3. Develop a shore facilities recapitalization plan that supports the planned
   growth in its boat station workforce.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a discussion draft of this report to Coast Guard on February 25,
2003, and on February 27, 2003, we met with Coast Guard officials to obtain their
verbal comments. At this meeting Coast Guard officials generally agreed with our
findings and recommendations for improving its cost accounting system, revising
its strategic plan, and developing a shore facilities capitalization plan. Coast
Guard officials also suggested wording changes to enhance the technical accuracy
of the report, which we made, as appropriate.

We consider Coast Guard’s verbal comments to be responsive to our findings and
recommendations and believe that, once implemented, the recommended actions
will strengthen Coast Guard’s efforts to rebuild its SAR program and ensure that
SAR operations will not diminish after Coast Guard moves to the Department of
Homeland Security.

ACTION REQUIRED
We request that you provide your written comments on this report within 30 days
to the Department of Homeland Security Office of Inspector General. If you
concur, please indicate specific actions, taken or planned, and the target dates for
completion. If you do not concur, please provide an explanation of your position.
Furthermore, you may provide alternative courses of action that you believe would
resolve the issues presented in this report.



                                        Revised
                                                                                                                8


FINDINGS

FY 2002 Funds Were Used to Over-Billet6 Stations With
Inexperienced Personnel
In FY 2002, Coast Guard spent $49 million more than in FY 2001 at small boat
stations, command centers, and other field locations. Of this amount, $28 million
was used to add 789 personnel to small boat stations, which enlarged station staffs
by 19 percent. While this expenditure complies with congressional direction for
use of the designated funds and will contribute to growing the station workforce,
our review showed that increasing staffing levels will not, by itself, improve the
number of trained and certified personnel at the stations. As shown in Table 1,
351 or 44 percent of the 789 personnel added to stations are recent boot camp
graduates who lack the required training and experience to perform their station
and boat crew duties. The remaining 56 percent are senior personnel with varying
skills and abilities.


          Table 1. Breakdown of Station Personnel Added in FY 2002 by
                               Experience Level
                                                                                         Increase   Breakdown
          Experience Level                        FY                   FY                 During        of
                                                 2001                 2002                FY 2002    Increase
       E-1 to E-31                               1,406                1,757                351       44%

       E-4 and Above                             2,824                3,262                438       56%
       Total Junior and
                                                 4,230                5,019                789      100%
       Senior Staff
           1
               Designates the grade of an enlisted person, E-1 being the lowest grade.


In our prior audit, we reported that maintaining an appropriate number of
experienced, senior level personnel is vitally important to the SAR program
because Coast Guard relies on them to provide on-the-job training to new and
junior personnel. However, only 19 percent7 of the additional personnel are at or
above the E-5 level and, therefore, qualified to train junior staff.

The added personnel have also not significantly improved the ratio of trainers to
trainees at small boat stations. In our prior audit, we reported that the ratio of
trainers (E-4 to E-9) to trainees (E-1 to E-3) at boat stations had declined from
5.5 to 1 in FY 1996 to 1.5 to 1 in FY 2001 and was significantly below Coast
Guard’s draft staffing standard of 3.2 trainers to 1 trainee. The FY 2002 trainer to

6
    Adding personnel to stations who are over their personnel allowances.
7
    Of the 789 personnel added during FY 2002, only 147 are at or above the E-5 level.

                                                                  Revised
                                                                                       9


trainee ratio of 1.6 to 1 is only a slight improvement over the FY 2001 ratio. In
our prior audit, we also reported that these statistics understate the training burden
since a large portion of those categorized as senior staff are E-4’s. According to
Coast Guard’s Enlisted Performance Qualifications Manual, E-4’s are
“apprentices who are just learning their trade… and (who) rely on significant
mentoring, coaching, and supervision.” Therefore, they lack the training,
experience, and qualifications to be trainers. During FY 2002, E-4’s represented
31 percent of total station staffing.

Growing the senior workforce to attain the trainer-to-trainee ratio proposed in the
draft staffing standard will take years. According to Coast Guard, it takes
approximately 5 years for a new recruit to advance to the E-5 level and
approximately 10 years to advance to an E-6 position. With the majority of the
added personnel being junior, the training burden will continue to be carried by
senior station personnel.

In our prior audit, we reported that the lack of experienced station personnel was a
major factor contributing to the excessive hours worked by station boat crews and
the sharp increase in small boat mishaps. While Coast Guard’s standards call for a
68-hour work week for optimal operations,8 our prior report showed that
90 percent of all stations averaged an 84-hour work week. Currently, despite the
substantial increase in station staffing, the majority of Coast Guard stations
continue to operate outside of the 68-hour standard. As of September 2002,
99 percent of small boat station staffs were working in excess of 68 hours per
week, and 73 percent were working 84 hours or more per week.

In addition to adding a large percentage of junior personnel to stations, Coast
Guard established 97 senior positions at 71 stations. However, our analysis shows
that Coast Guard filled 64 (66 percent) of the senior positions with staff that were
not qualified for their positions. For example, 3rd class boatswain’s mates were
placed in 2nd class boatswain’s mate positions. According to Coast Guard’s
Enlisted Performance Qualifications Manual, 3rd class boatswain’s mates have not
yet demonstrated that they possess the minimum set of skills, experiences, and
qualifications necessary to perform the complex tasks required of the higher
position. The extent to which Coast Guard is placing junior personnel in senior
positions diminishes the oversight and training of personnel needed to carry out
missions. Our prior audit noted that the lack of training and experience were
factors contributing to SAR boat accidents.

Finally, 541 (69 percent) of the 789 personnel added to small boat stations during
FY 2002 were over-billeted personnel not placed in authorized positions.
Historically, Coast Guard has placed over-billeted personnel at stations to be

8
    Commandant Instruction M5312.11A, Staffing Standards Manual, September 26, 1988.
                                                                                                                   10


trained as boatswain’s mates and mechanics before assignment to other locations.
Because the 541 personnel are not filling billets, there is no assurance that they
represent a permanent increase in station staffing levels as intended by the Act or
that stations will receive any long-term benefit from their on-the-job training
investment. Further, the average tour length for entry level personnel of 9 to
23 months adds to the uncertainty of whether the added personnel will become a
permanent dedicated boat station resource.

Coast Guard officials commented they are creating 239 senior billet positions
during FY 2003 to make some of the over-billeted personnel permanent. While
the senior billets are needed, there will still be 302 over-billeted personnel who are
not assigned to authorized positions. Further, we note that Coast Guard plans to
over-recruit in FYs 2003 and 2004, which would further increase the number of
over-billeted personnel at stations. Therefore, we remain concerned that the
personnel added to stations may not serve as dedicated SAR resources.

Coast Guard Did Not Invest in Training for New Recruits

Of the 789 personnel added to boat stations in FY 2002, 351 were recent boot
camp graduates, who did not undergo formal entry-level training prior to reporting
to their boat station assignments. In our previous audit of the SAR program, we
reported that new recruits reporting to stations had little training in basic
seamanship and water survival techniques, which increased the training burden on
other station personnel. Further, the added training burden contributed to: 84-hour
work weeks at stations; declining test scores among small boat coxswains; rescue
boat mishaps; and the declining readiness of Coast Guard’s standard rescue boat
fleet. We also noted that boatswain’s mates, who represent one of the largest and
most critical of the enlisted ratings in Coast Guard, were the only enlisted
personnel in Coast Guard that did not have a specialty school to better qualify in
their rate.9 For these reasons, we recommended that all boatswain’s mates be
formally trained before being assigned to small boat stations.

To alleviate the training burden placed on station personnel, Coast Guard planned
to re-establish its active duty Boatswain’s Mate-A school in FY 2002. However,
the school was not established until September 2002 and did not graduate its first
class until December 20, 2002. Coast Guard subsequently increased the annual
throughput from 120 students to 570 by compressing the planned 12-week training
course into 9 weeks.

Further, because the school can train only 570 personnel annually, Coast Guard
cannot train all of the approximately 5,000 new boatswain’s mates it expects to

9
    A specialty school would provide individuals seeking a boatswain’s mate rating with formal training in seamanship,
    small boat handling, navigation and piloting, water survival, and SAR techniques.
                                                                                        11


recruit or promote through FY 2006. A shortage of facility classrooms, boat piers,
small boats used for training, and qualified instructors limits the school’s
throughput. As a result, the burden of training boatswain’s mates will remain
largely with senior station personnel.

The same factors that limit the throughput of the Boatswain’s Mate-A school are
preventing Coast Guard from expanding its Coxswain-C schools.                  The
Coxswain-C schools provide boatswain’s mates with advanced training designed
to better qualify them as 41-foot utility boat coxswains. One such school also
provides heavy weather training for those coxswains seeking to qualify as a
surfman—of which Coast Guard is in short supply. As of December 31, 2002,
only 88 (55 percent) of the 161 surfman billets at surf stations were filled by
coxswains certified to operate a rescue boat in surf conditions. Shortages of surf-
certified coxswains are forcing many of the surf stations to incorporate their
management cadre into the duty rotation in order to meet minimum readiness
standards.

The Utility Boat Coxswain-C school can accommodate about 120 individuals per
year, and the Motor Life Boat Coxswain-C schools can accommodate about 144
per year. As a result, these schools cannot meet Coast Guard’s annual coxswain
training needs. The training gap will be filled through on-the-job training
provided by senior station personnel. The Coxswain-C schools are not only
needed to meet the demand for experienced coxswains, but also provide
standardized techniques, introduce new equipment, and provide continuing
professional development for boatswain’s mates who want to advance quicker.

Coast Guard needs to develop a plan for expanding advanced training programs to
meet Coast Guard’s needs and reduce the on-the-job training workload at its small
boat stations. Not expanding the capacity of the Boatswain’s Mate-A and
Coxswain-C schools relative to the increasing demand for small boat training
could, over time, shift additional training responsibilities to stations, resulting in
further increases in workload and accidents.

Shortages of Personal Safety Equipment Exist at Small Boat Stations

Coast Guard guidance requires that active and reserve personnel eligible for boat
crew duty be equipped with their own set of basic and, where appropriate, cold
weather personal protection equipment (PPE).10 In the Maritime Transportation
Security Act of 2002, Congress reinforced these requirements by emphasizing that
Coast Guard personnel performing SAR missions (including auxiliary personnel)
needed to be adequately equipped with safety equipment, including hypothermia
protective clothing. To help ensure that boat crews are appropriately equipped,

10
     Commandant Instruction M10470.10E, Rescue and Survival Systems Manual Chapter 3.

                                                        Revised
                                                                               12


Congress specifically identified PPE as an area to be funded by the appropriation.
This direction resulted from Committee concerns about reports that boat station
personnel may not have adequate PPE to protect them fully while performing
dangerous SAR missions.

In accordance with congressional direction for the appropriation, Coast Guard
spent an estimated $2.1 million on PPE at boat stations and other field locations
during FY 2002. However, we could not determine how much of the $2.1 million
was spent at boat stations. Regardless of whether some or all of the
PPE expenditures were for boat stations, Coast Guard’s funding formulas for small
boat stations did not include PPE for the over-billeted personnel, reservists, and
auxiliary personnel eligible for boat crew duty. Purchasing PPE for each of these
personnel would cost an estimated $6.9 million, with an estimated replacement
cost of $2.3 million annually.

In the absence of adequate funding, stations often supply PPE by using operating
funds intended for general administration and boat maintenance or by sharing
existing PPE with other station personnel. Therefore, establishing PPE funding
formulas that incorporate all auxiliary, reserve, and active duty (including over-
billeted) personnel eligible for boat crew duty is needed to ensure that Coast
Guard has the equipment necessary to bring these personnel up to standards.

Many Small Boat Stations Cannot Accommodate Additional
Personnel

Our audit disclosed that many Coast Guard small boat stations did not have
adequate workspace, sleeping quarters or shower facilities to support the
significant staffing increases Coast Guard made during FY 2002. This occurred
because Coast Guard added staff beyond capacity limits established for the boat
stations. For example, 32 of the 71 stations that received additional staff in FY
2002 exceeded their personnel allowances by at least 15 percent. Overcrowding
was even more problematic for the 11 stations identified in Table 2, which
experienced staffing increases exceeding 25 percent of their personnel allowances.




                                       Revised
                                                                                                                   13



                             Table 2. Impact of Over-Billeted Personnel at
                                      Selected Small Boat Stations
                                                                                 Total             Percent
            Coast Guard             Authorized    Number of
                                                                              Personnel at          Over
              Station               Staff Level Over-Authorized
                                                                                Station           Authorized
        Swansboro, NC                     11                   6                    17                 55
        Elizabeth City, NC                16                   7                    23                 44
        Pensacola, FL                     22                   9                    31                 41
        Buffalo, NY                       18                   7                    25                 39
        Rio Vista, CA                     23                   8                    31                 35
        Two Rivers, WI                    17                   6                    23                 35
        Oswego, NY                        19                   6                    25                 32
        Maui, HI                          10                   3                    13                 30
        Kenosha, WI                       18                   5                    23                 28
        Michigan City, IN                 18                   5                    23                 28
        Carquinez, CA                     26                   7                    33                 27


We contacted commanding staff at 22 of the 32 stations that exceeded their
personnel allowances by 15 percent or more. Many of these staff expressed
serious concerns about their ability to accommodate the additional personnel
being assigned to their stations. For example, at the 11 stations listed in Table 2,
staff told us that the increase in personnel has resulted in duty personnel sleeping
on couches, in offices, or in accommodations outside the station. Following are a
few examples of the burdens placed on these and other facilities by staffing
increases made in FY 2002.

       • Miami Beach, Florida. This facility is a boat house that was converted to
         accommodate 48 people. Currently, 73 personnel11 are assigned to the
         facility. The station also does not have a training room or sleeping
         quarters. Coast Guard uses space in another Coast Guard facility to train
         station personnel.

       • Maui, Hawaii. This station was built to provide work space for 12 people
         with sleeping quarters for 4 to 6 people. The station has no galley and has
         one bathroom that is shared by both sexes. As of September 2002, there
         were 13 people on board. When more than six people are on duty, the extra
         personnel sleep on mattresses on the floor.

       • Golden Gate, California. This 12-year-old facility was built to house
         33 people. Currently, 48 people are assigned to this station, which has
         placed tight constraints on the office space and the galley.

11
     At the end of FY 2002, 57 people were assigned to the Miami station. However, as of February 28, 2003, that
     number increased to 73.

                                                          Revised
                                                                                 14


   • Michigan City, Indiana. This station is one of the 9th district’s oldest
     facilities, built in 1889. The building has since been expanded with the
     addition of a second floor for sleeping quarters and a side addition for a
     galley. The age of the original building has placed an ongoing maintenance
     burden on the station. The part of the structure where the two original
     structures are joined is being held up by jacks in the basement that are
     sinking into the ground. This structure is in need of annual repairs. In
     addition, the galley equipment needs to be replaced, and the galley’s fire
     suppression system was reported as not working.

At an average age of 40 years, Coast Guard’s shore facilities are approaching the
end of their estimated service lives. Coast Guard’s Regional Strategic Assessment
reports for FYs 2001 and 2002 underscore the inadequacies of capital and
maintenance funding for Coast Guard’s aging shore facilities. For example, the
FY 2001 Atlantic Area assessment reported that facilities require extensive
maintenance and many are not adequately suited for today’s missions, boat sizes,
and dual gender crews. Similarly, the FY 2001 Pacific Area assessment reported
that the aging and deteriorated fleet of cutters, aircraft, shore facilities, and
equipment are threatening mission readiness, hindering performance, hurting
retention and eroding support to field units. Finally, the FY 2002 assessment
reported that at least 50 percent of Coast Guard’s housing needs to be recapitalized
to correct inadequacies in size, condition, or mix of sleeping quarters.

Despite these regional assessments, Coast Guard has not formally evaluated its
shore facility needs and does not have a finalized long-term recapitalization plan.
Coast Guard’s decision to continually reduce the capital budget for shore facilities
has adversely impacted Coast Guard’s ability to recapitalize these aging facilities.
Capital funding for shore facilities has significantly decreased from $64 million in
FY 2000 to approximately $50 million in FY 2003. During the same period,
capital funding allocated to the Integrated Deepwater Procurement Project and the
Rescue 21 Project increased from $60 million to $568 million. This trend is
expected to continue into the foreseeable future, because Coast Guard’s Integrated
Deepwater Replacement and Rescue 21 projects are expected to consume
80 percent of Coast Guard’s total FY 2004 capital budget. The Coast Guard’s
FY 2004 budget includes no funding for boat stations.

RECOMMENDATIONS
We recommend that the Commandant:

1. Make the necessary improvements to Coast Guard’s cost accounting system to
   allow for the tracking and certification of future expenditures for
   SAR operations.

                                        Revised
                                                                                   15



2. Revise the draft Boat Forces Strategic Plan to identify specific actions, time
   frames, and assigned responsibilities required for increasing staffing, training,
   and experience levels at boat stations to meet Coast Guard’s 68-hour work
   week standard and for improving the quantity and quality of personal safety
   equipment as directed by the Senate Appropriations Committee.

3. Develop a shore facilities recapitalization plan that supports the planned
   growth in its boat station workforce.

U.S. COAST GUARD COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

We provided a discussion draft of this report to Coast Guard on February 25,
2003, and on February 27, 2003, we met with Coast Guard officials to obtain their
verbal comments. At this meeting Coast Guard officials generally agreed with our
findings and recommendations for improving its cost accounting system, revising
its strategic plan, and developing a shore facilities capitalization plan. Coast Guard
officials also suggested wording changes to enhance the technical accuracy of the
report, which we made, as appropriate.

We consider Coast Guard’s verbal comments to be responsive to our findings and
recommendations and believe that, once implemented, the recommended actions
will strengthen Coast Guard’s efforts to rebuild its SAR program and ensure that
SAR operations will not diminish after Coast Guard moves to the Department of
Homeland Security.

ACTION REQUIRED
We request that you provide your written comments on this report within 30 days
to the Department of Homeland Security Office of Inspector General. If you
concur, please indicate specific actions taken or planned, and the target dates for
completion. If you do not concur, please provide an explanation of your position.
Furthermore, you may provide alternative courses of action that you believe would
resolve the issues presented in this report.

We appreciate the courtesies and cooperation of Department of Transportation and
Coast Guard representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-1992 or Debra S. Ritt, Assistant
Inspector General for Transit, Rail Safety and Maritime Programs, at
(202) 493-0331.

                                          #


                                         Revised
                                                                                16




EXHIBIT A. OBJECTIVE, SCOPE, AND
METHODOLOGY, AND PRIOR AUDIT COVERAGE
Objective, Scope and Methodology
Our audit objective was to certify whether the Coast Guard used the $14.5 million
earmarked in FY 2002 to supplement improvements planned at small boat stations
and command centers. We could not certify whether the funds were solely used to
improve Search and Rescue (SAR) operations at boat stations because of the
multi-mission nature of boat stations and the inability of Coast Guard’s cost
accounting system to isolate SAR-related costs.

Therefore, we focused our efforts on identifying increases in FY 2002 boat station
expenditures over FY 2001 levels, and determining the portion of this increase that
represented direct costs for personnel, training, and equipment. We also evaluated
whether Coast Guard’s FY 2002 expenditures resulted in improvements to Coast
Guard’s SAR readiness and determined whether Coast Guard implemented our
prior recommendation to develop a Boat Forces Strategic Plan.

We conducted our audit from July 2002 through February 2003 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States. During the audit we met with and obtained data from the Coast
Guard Headquarters offices, boat stations and other locations identified in
Exhibit B.

To identify increases in SAR expenditures and determine how costs were allocated
to Coast Guard missions, we met with staff from Coast Guard’s Office of
Financial Systems and Office of Budget, and we reviewed Coast Guard’s cost
accounting model. We also analyzed documents from Coast Guard’s personnel
management system to identify personnel, training, and equipment expenditures
for FYs 2001 and 2002. We did not conduct tests of the reliability of Coast
Guard’s financial systems, but relied on a prior Office of Inspector General (OIG)
assessment of system controls.

We evaluated whether Coast Guard’s FY 2002 expenditures resulted in
improvements to Coast Guard’s SAR readiness by:

    • Evaluating the mix of station personnel at the 71 small boat stations where
      Coast Guard increased staffing in FY 2002, determining trainer-to-trainee
      ratios, and reviewing experience levels of personnel working in positions
      E-4 and above.


Exhibit A. Objective, Scope, and Methodology, and Prior Audit
Coverage
                                       Revised
                                                                                 17


    • Comparing the number of hours worked by boat crews to Coast Guard’s
      work week standard.

    • Comparing training needs for boatswain’s mates with the throughput of the
      Boatswain’s Mate-A and Coxswain-C schools. We also discussed the
      training program for boatswain’s mates with officials at Coast Guard
      Headquarters and the Yorktown training facility, and toured the Yorktown
      facility.

    • Contrasting FY 2002 Personal Protection Equipment (PPE) expenditures to
      funding requirements for equipping all reserve, auxiliary and over-billeted
      personnel. The funding requirements were identified through staffing
      reports and interviews with officials from the Office of Boat Forces.

Because Coast Guard significantly expanded its workforce in FY 2002, we also
evaluated the capability of small boat stations to physically accommodate
increases in staffing. Specifically, we identified 71 stations that received
personnel increases and evaluated the extent to which actual staffing levels
exceeded each station’s authorized personnel allowances. We discussed with
commanding staff at 22 stations the impact the excess personnel were having on
the stations’ ability to support their workspace and berthing needs. These stations
and others we contacted are listed in Exhibit B.

Further, we met with District 9 Civil Engineering and Planning officials to identify
shore facility infrastructure and their maintenance and capital needs. We also
reviewed Coast Guard Regional Strategic Assessments for FYs 2001 and 2002 and
other supporting documents. We analyzed Coast Guard’s historical expenditures
for shore facilities since FY 1992 and facility funding plans for FYs 2003 and
2004.

Finally, we determined whether Coast Guard implemented our prior
recommendation by reviewing Coast Guard’s draft Strategic Boat Forces Plan.
We evaluated the plan on the basis of whether it contained specific and
quantifiable requirements for staffing, training, and equipment; identified
responsible parties; set milestones; and estimated the cost of implementing
planned actions.

Prior Audit Coverage
Our “Audit of the Small Boat Station Search and Rescue Program” (Report
Number MH-2001-094, September 14, 2001) determined that the readiness of the
Coast Guard's SAR stations continues to deteriorate. The audit identified staffing
shortages contributing to excessive hours worked per week, a decline in the

Exhibit A. Objective, Scope, and Methodology, and Prior Audit
Coverage
                                                                                 18


trainer- to-trainee ratio from 5.5 to 1 in FY 1996 to 1.5 to 1 in FY 2001, no formal
entry-level training for boatswain’s mates, and boats that were not seaworthy.

The report recommended that Coast Guard develop and implement a strategic plan
to improve SAR station readiness to provide a clear framework for rebuilding the
SAR program. The plan should describe specific actions, establish timeframes for
completing those actions, identify organizations and personnel responsible for the
actions, and estimate implementation costs. As of February 21, 2003, Coast Guard
had not finalized its Boat Forces Strategic Plan. The findings in the 2001 OIG
report were the impetus for Congress’ designation of $14.5 million to improve the
staffing, training, and PPE at small boat stations.




Exhibit A. Objective, Scope, and Methodology, and Prior Audit
Coverage
                                                                         19




EXHIBIT B. OFFICES VISITED OR CONTACTED
During the audit, we visited or contacted the following offices:

 COAST GUARD HEADQUARTERS

 Office of the Chief of Staff
    Office of Programs
    Office of Budget
    Office of Financial Systems

 Operations Capability Directorate
   Office of Boat Forces


 SMALL BOAT STATIONS

 Bellingham,WA                             Miami Beach, FL
 Buffalo, NY                               Michigan City, IN
 Calumet Harbor, IL                        Milwaukee, WI
 Carquinez, CA,                            Oswego, NY
 Cetco River, CA                           Pensacola, FL
 Chincoteague, VA                          Port Canaveral, FL
 Galveston, TX                             Portland, OR
 Fairport, OH                              Rio Vista, CA
 Golden Gate, CA                           San Francisco, CA
 Gulfport, MS                              Sturgeon Bay, WI
 Kenosha, WI                               St. Petersburg, FL
 Key West, FL                              Swansboro, NC
 Lorain, OH                                Two Rivers, WI
 Marblehead, OH                            Wilmette, IL
 Maui, HI


 OTHER LOCATIONS
 District 9 Civil Engineering Unit, Cleveland, OH
 Groups: Milwaukee, WI; San Francisco, CA; Galveston, TX
 Auxiliary Flotilla Wilmette, IL
 Training Center, Yorktown, VA – Office of the Commandant, Boatswain’s
  Mate-A School, and Utility Boat Systems Center




Exhibit B. Offices Visited or Contacted
                                        Revised
                                                                     20



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
     THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Name                     Title


  Debra S. Ritt            Assistant Inspector General for Transit, Rail
                           Safety, and Maritime Programs

  Edward Stulginsky        Program Director

  Richard T. Johnson       Project Manager

  Ruth Blevins             Senior Analyst

  Sam Bellino              Senior Auditor

  Stephen Bitter           Program Analyst

  Kimberly Bolding         Auditor

  David Engelen            Program Analyst

  Amitra Mamdouhi          Program Analyst




Exhibit C. Major Contributors to This Report
